HHS/OIG-AUDIT--Review of States' License Suspension Processes (A-01-96-02502)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of States' License Suspension Processes," (A-01-96-02502)
July 2, 1997
Complete
Text of Report is available in PDF format (1M). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
In response to the need for securing better methods of collecting child support from delinquent noncustodial parents (NCPs),
some States, prior to Federal requirements, passed bills that provided for the suspension of drivers', occupational, and
professional licenses. Federal requirements for States to enact license suspension legislation were contained as part of
the Personal Responsibility and Work Opportunity Reconciliation Act (PRWORA) of 1996. Under PRWORA, States have a great
deal of flexibility in implementing license suspension programs. States with license suspension programs have enacted either
an administrative, judicial, or a combination of both processes. The administrative process, in general, provides the IV-D
agency with the direct authority to identify and suspend a NCP's license. The judicial process limits the authorization
to suspend a license to a judge.
To evaluate the effectiveness of States' license suspension processes. Specificly, we determined whether the administrative
process was more effective than the judicial process.
The initial two States we reviewed, Maine and Vermont, clearly manifested a contrast in the administrative versus the
judicial process. The administrative process resulted in more collections and less time to suspend a license. In our subsequent
review of six additional States, we also found that the administrative process generally showed more favorable results.
However, the contrast was not as conclusive because information on the use of license suspension and resulting collections
was not always complete or available. We did find that the Administration for Children and Families (ACF) had taken an
active role in advocating license suspension and reporting State results.
The ACF and the Department have been proactive in advocating license suspension as an enforcement tool. Examples include:
(1) the Department issuing a press release of the accomplishments of 19 States; (2) maintaining an informational page on
license suspension on the Internet; and (3) the Department and ACF encouraging Congress to include a license suspension
provision in the PRWORA of 1996. Information lending to an evaluation of whether the administrative or judicial process
was more effective and produced better results was limited.
While welfare reform has mandated that States enact legislation for license suspension, States still have the option of
selecting and developing their own methods of using it as an enforcement tool. Our review disclosed that the more successful
license suspension programs we reviewed provided the IV-D agency with the administrative authority to suspend licenses.
State IV-D officials from Maine, Florida, and California stated, in general, that having the direct authority to administratively
suspend licenses would be more effective and expedient since it would allow them to bypass the court system thereby saving
time and resources.
Our review disclosed differences in the administrative process used by Maine to suspend drivers', occupational, and professional
licenses, and the judicial process used by Vermont to suspend drivers' licenses. For example, during the first 9 months
of the program:
Maine targeted 17,069 (100 percent) of its eligible drivers, occupational and professional licenses, and collected
$9.7 million in overdue child support from 9,057 of these cases. Maine officials attribute these collections to the threat
of a single agency that can attack on a broad front. Conversely, Vermont targeted 8 of 4,296 drivers' licenses and collected
$5,757 from two of these cases.
Maine took an average of 97 days to suspend 101 drivers' licenses, and 116 days to suspend 12 occupational and professional
licenses. The three drivers' licenses judicially suspended by Vermont took 453, 395, and 264 days.
Florida officials believed that changing from a judicial to an administrative process to suspend drivers' licenses would
improve the collections of overdue child support by allowing the State to target significantly more delinquent NCPs, Our
review of the Tampa region disclosed that the IV-D agency targeted 149 drivers' licenses under the judicial process from
January 1994 through June 1995, and 512 under the administrative process from July 1995 through March 1996. We also found
that this region took an average of 227 days to suspend a license under the judicial process and an average of 36 days
under the administrative process.
The limited information we obtained from the administrative processes used by California, Oregon, and Virginia compared
with the judicial processes used by Arizona and Pennsylvania disclosed that the administrative States generally had better
results.
We found that ACF has been aware of the importance of license suspension programs and proactive in advocating license
suspension as an enforcement tool. Although we were not able to obtain conclusive evidence from all eight States reviewed,
the administrative process generally targeted more cases, had more collections, and took less time to suspend licenses.
Also, we identified the following notable practices that enhanced the programs we reviewed: (1) targeting cases on a periodic
basis, (2) using specific computer fields to track related information, (3) using automated follow-up procedures, (4) having
a common identifier to match IV-D with other State records, and (5) using license suspension when deemed necessary instead
of using it as a last resort. Recognizing that PRWORA was silent regarding State license suspension processes, we encourage
ACF to disseminate our results to the States. The ACF agreed with the points made in our report.